               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




         St. Louis Network Distribution
             Center – Postal Vehicle
               Service Operations

                       Audit Report




                                         September 21, 2012

Report Number NL-AR-12-008
                                                                     September 21, 2012

                                               St. Louis Network Distribution Center –
                                                    Postal Vehicle Service Operations

                                                           Report Number NL-AR-12-008



BACKGROUND:
U.S. Postal Service network                    drivers. Our analysis showed each
transportation using Postal Service            driver performed an average of 16
vehicles and employees is referred to as       moves per day. As a result, the facility
Postal Vehicle Service (PVS). This             expended more driver workhours than
report focuses on the St. Louis Network        necessary. We estimate the
Distribution Center‟s (NDC) PVS truck          Postal Service could reduce 6,984 driver
driver operations. The St. Louis NDC           workhours and save about $299,000
has a staff of 15 PVS drivers                  annually if standards are met. We also
responsible for an average of 1,657            observed drivers not consistently using
moves per week, servicing 137 dock             safety belts while driving in the NDC
doors.                                         yard.

PVS operations at NDCs include yard            WHAT THE OIG RECOMMENDED:
operations in which drivers use specific       We recommended the vice president,
trucks to move trailers and equipment in       Great Lakes Area Operations ensure
or around a facility yard. The operations      that the St. Louis NDC managers
require timely unloading of mail from          periodically assess PVS truck driver
trailers as they arrive at the facility and    workload and staffing. We also
the timely loading of mail into trailers for   recommended the elimination of
direct movement from the facility yard.        6,984 annual workhours associated with
The process avoids unnecessary                 improving productivity to the standard of
movement and placement of trailers in          40 trailer moves in the yard per day, or
the yard.                                      200 moves per week. Finally, we
                                               recommended that management re-
Our objectives were to assess trailer          emphasize the safety policy that drivers
loading practices at selected NDCs and         must wear safety belts whenever their
determine whether staffing of PVS truck        vehicles are in motion and provide
driver operations was efficient, effective,    management oversight for enforcement.
and economical.
                                               Link to review the entire report
WHAT THE OIG FOUND:
St. Louis NDC staff executed effective
and efficient loading policies and
practices. However, we found that
managers did not adhere to the
productivity standards of 40 trailer
moves per day in the yard for PVS
September 21, 2012

MEMORANDUM FOR:             JACQUELINE M. KRAGE-STRAKO
                            VICE PRESIDENT, GREAT LAKES AREA




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:             Audit Report – St. Louis Network Distribution Center – Postal
                     Vehicle Service Operations - (Report Number NL-AR-12-008)

This report presents the results of our audit of the St. Louis Network Distribution Center,
Postal Vehicle Service Operations (Project Number 12XG008NL001).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Jody J. Troxclair, director,
Transportation, or me at 703-248-2100.

Attachments

cc: David E. Williams, Jr.
    Cynthia F. Mallonee
    Pamela S. Grooman
    Corporate Audit and Response Management
St. Louis Network Distribution Center – Postal                                                                     NL-AR-12-008
 Vehicle Service Operations


                                               TABLE OF CONTENTS



Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Live Loading/Unloading Practices ................................................................................... 2

Postal Vehicle Service Yard Move Productivity ............................................................... 2

Other Matters – Safety Concerns .................................................................................... 3

Recommendations .......................................................................................................... 3

Management‟s Comments .............................................................................................. 3

Evaluation of Management‟s Comments ......................................................................... 4

Appendix A: Additional Information ................................................................................. 5

   Background ................................................................................................................. 5

   Objectives, Scope, and Methodology .......................................................................... 6

   Prior Audit Coverage ................................................................................................... 8

Appendix B: Detailed Analysis of Live Loading Practices................................................ 9

Appendix C: Detailed Analysis – Tractor Trailer Operator Work Load .......................... 11

Appendix D: Detailed Analysis of Safety Concerns ....................................................... 12

Appendix E: Monetary Impacts ..................................................................................... 13

Appendix F: Management‟s Comments ........................................................................ 14
St. Louis Network Distribution Center – Postal                                                NL-AR-12-008
 Vehicle Service Operations


Introduction

This report focuses on St. Louis Network Distribution Center (NDC) Postal Vehicle
Service (PVS) truck driver operations and related trailer loading (and unloading)
practices. The objectives of our audit were to assess loading practices at selected
NDCs and determine whether staffing of PVS transportation operations was efficient,
effective, and economical. This self-initiated audit addresses operational risk. See
Appendix A for additional information about this audit.

U.S. Postal Service network transportation using Postal Service vehicles and
employees is referred to as PVS. Because PVS operations are local, they are managed
at the facility level under guidance from district, area, and headquarters transportation
officials. PVS activities at NDCs include yard operations, which is the movement of
trailers and equipment in or around a facility yard (spotting), typically to and from the
facility dock doors. This movement of trailers is performed by PVS drivers using spotter
trucks1 (see Figure 1).

                               Figure 1. Spotter Trucks at St. Louis NDC




                             Source: U.S. Postal Service Office of Inspector General (OIG),
                             June 5, 2012.

NDCs are tasked with „live unloading‟ and „live loading‟ of all arriving and departing mail
transportation trailers. Live unloading is when the highway contract route (HCR) or PVS
driver brings a trailer directly to a dock door for unloading when it enters the facility, and
live loading is when the HCR or PVS driver takes a loaded trailer directly from the dock
and out the facility yard. In either case, the trailer is not placed in the yard (or spotted)
for movement at a later time. Not spotting trailers in the yard ensures mail flow to the
next operation or facility without delay and reduces total operating expenses at the


1
    Spotters are heavy duty trucks used to move trailers within an NDC yard operation.
                                                             1
St. Louis Network Distribution Center – Postal                                                        NL-AR-12-008
 Vehicle Service Operations

same time. 2 The St. Louis NDC has a staff of 15 PVS drivers responsible for an
average of 1,657 moves per week, servicing 137 dock doors.

Conclusion

St. Louis NDC staff executed effective and efficient loading policies and practices.
However, we found that managers did not adhere to the productivity standards of
40 trailer moves in the yard per day for PVS drivers. Our analysis showed each driver
performed an average of 16 moves per day. As a result, the PVS drivers used more
driver workhours than necessary. We estimate the Postal Service could reduce driver
workhours by 6,984 and save about $299,000 annually. We also observed that PVS
drivers were not consistently using safety belts while driving within the NDC yard as
required.

Live Loading/Unloading Practices

St. Louis NDC staff executed effective and efficient loading practices. Our observations
at the facility revealed that they loaded mail on trailers to immediately depart and
unloaded mail from trailers as they arrived at the facility yard, using contract drivers to
complete trailer moves to and from the dock doors. This process avoids unnecessary
movement and placement (spotting) of trailers in the yard and reduces overall
transportation times and handling costs. St. Louis NDC management consistently
followed the Postal Service‟s NDC policy for live loading and unloading when possible.
See Appendix B for our detailed analysis of this topic.

Postal Vehicle Service Yard Move Productivity

St. Louis NDC management could make operations more efficient by holding PVS
drivers to a standard of 40 moves3 per workday for each driver. Specifically, in 2005, the
Postal Service‟s Breakthrough Productivity Initiative4 established productivity standards
for NDC PVS operations, specifying that drivers (tractor-trailer operators) are expected
to complete 40 trailer moves within an 8-workhour period. One driver can accomplish
200 trailer moves within a NDC yard during a 40-workhour week.5

We found that St. Louis NDC PVS drivers were averaging about 16 moves per workday.
Furthermore, we conducted observations and analyzed operational workload data6 and
confirmed that established productivity standards were reasonable and attainable for
PVS drivers at the facility. Productivity standards were not met, because NDC
managers did not fully assess workload and staffing requirements. If productivity was

2
  Standard Operating Procedures Live Loading and Unloading of Trailers at Network Distribution Centers.
3
  A move consists of moving trailers and equipment from one location to another in the NDC yard.
4
  The Breakthrough Productivity Initiative was initiated to drive costs out of the Postal Service while creating
continuous improvement capability.
5
  Headquarters and senior area transportation managers have explained that this productivity standard was
reasonable and appropriate.
6
  Our analysis also included PVS driver workload associated with the St. Louis Annex, which is supported by the
drivers from the NDC facility.


                                                          2
St. Louis Network Distribution Center – Postal                               NL-AR-12-008
 Vehicle Service Operations

set at the standard of 40 moves per day, the Great Lakes Area could phase out about
6,984 annual workhours and save about $299,000 (or $598,000 over 2 years). See
Appendix C for our detailed analysis of this topic.

Other Matters – Safety Concerns

We observed that St. Louis NDC PVS drivers were not consistently using safety belts
while driving within the NDC yard as required. We shared this information with
management during our review, and they immediately held safety talks. They further
emphasized the policy by distributing another safety talk specifically on seat belt use.
Postal Service policy states, “Drivers must wear safety belts whenever the vehicle is in
motion.” However, although management did hold initial safety talks, we still observed
some drivers not wearing safety belts on our follow-up observations. Therefore,
management needs to continue to consistently reinforce Postal Service policy on safety
belt use. See Appendix D for our detailed analysis of this topic.

Recommendations

We recommend the vice president, Great Lakes Area Operations, require that St. Louis
Network Distribution Center management:

1. Periodically assess Postal Vehicle Service spotter truck driver workload and staffing
   requirements with respect to productivity standards to maintain appropriate staffing
   levels.

2. Eliminate 6,984 annual workhours associated with improving Postal Vehicle Service
   truck driver productivity to the Breakthrough Productivity Initiative standard of
   40 moves per day, or 200 moves per week.

3. Ensure that St. Louis Network Distribution Center management continually re-
   emphasize the safety policy that drivers must wear safety belts whenever their
   vehicles are in motion and provide management oversight for enforcement.
 .
Management’s Comments

Management agreed with all the findings and recommendations. In response to
recommendation 1, management agreed to conduct annual efficiency reviews of spotter
activity based on the criteria of 40 moves per day and 200 moves per week. The first
review was completed July 14, 2012. In response to recommendation 2, management
agreed to eliminate 6,982 annual workhours associated with PVS truck driver
productivity. Three postal support employee tractor trailer operator (TTO) positions were
eliminated effective July 14, 2012, and one TTO position was reverted to a different,
open position effective August 11, 2012. They also plan to abolish two more TTO
positions that were residual vacancies. In response to recommendation 3, management
met with employees and conducted talks on the driver‟s responsibility to wear seat belts




                                                 3
St. Louis Network Distribution Center – Postal                              NL-AR-12-008
 Vehicle Service Operations

when the vehicle is in motion, and management will monitor and enforce this policy. See
Appendix F for management‟s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management‟s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report. We consider
recommendation 2 resolved and will be closed with the issuance of this report.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service‟s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                                 4
St. Louis Network Distribution Center – Postal                                                            NL-AR-12-008
 Vehicle Service Operations



                                  Appendix A: Additional Information

Background

PVS Operations: Postal Service surface network transportation that uses Postal Service
vehicles and employees is called PVS. Management typically assigns PVS vehicles and
personnel to Postal Service network facilities, such as NDCs or processing and
distribution centers in or near metropolitan areas. PVS operations typically include yard
operations in which spotter trucks move or „spot‟ trailers and equipment in or around a
facility yard, typically an NDC yard. PVS is capital- and personnel-intensive. Nationwide,
PVS capital assets include about 2,154 cargo vans, 1,814 tractors (including spotter
tractors), and 3,892 trailers. PVS involves 7,720 employees, including 6,597 drivers,
575 administrative support personnel, and 548 managers. The American Postal
Workers Union represents PVS drivers and support personnel.

The St. Louis NDC has a staff of 15 PVS drivers responsible for an average of 1,657
moves per week servicing 113 dock doors at the NDC and 24 dock doors at the annex.

             Figure 2. Spotter Truck Moving Trailer in the St. Louis NDC Yard




                       Source: OIG, May 16, 2012.

Live Loading and Unloading Process: An essential component of the NDC network is
the live unloading of trailers as they arrive at the facility and the live loading of trailers
for direct movement from the facility yard.7 The process avoids unnecessary movement
and placement (spotting) of trailers in the yard and reduces overall transportation times

7
 Service Talk #2 Live Loading and Unloading of Trailers at Network Distribution Centers – service talk used to
communicate information on the conversion of bulk mail centers into NDCs to NDC employees. It explains that an
essential component of this new NDC network is the live loading and unloading of trailers as they arrive at the facility
and identifies specific roles and responsibilities.


                                                            5
St. Louis Network Distribution Center – Postal                                                             NL-AR-12-008
 Vehicle Service Operations

and handling costs. Outgoing mail received at Tier 1 NDCs from local processing
facilities is containerized separately and must be unloaded and transferred to the Tier 2
NDC in time to be processed and dispatched into the network.8 This requires the live
unloading of originating trailers and the live loading of trailers for the Tier 2 NDCs.
Queuing and staging trailers for unloading at a later time may result in delays and
service failures.

Objectives, Scope, and Methodology

The objectives of our audit were to assess loading practices at selected NDCs and
determine whether staffing of PVS transportation operations was efficient, effective, and
economical. During our work, we interviewed Postal Service officials at headquarters
and the St. Louis NDC. We reviewed relevant Postal Service policies and procedures,
interviewed managers and employees, and observed and photographed operations.

We extracted reports from the Yard Management System (YMS)9 that detailed all
outbound dispatches at the St. Louis NDC for a 3-week period. We analyzed this data to
determine whether the facility had a further opportunity to live load its outbound
dispatches. We based this analysis on the Postal Service policy, Standard Operating
Procedures Live Loading and Unloading of Trailers at Network Distribution Centers.
We also obtained computer-generated data from the Vehicle Tracking Analysis
and Performance System (VTAPS)10 for the St. Louis NDC that included a consecutive
17 -week period from November 1, 2011, through March 12, 2012. This data
represented the PVS yard operational workload (moves) for the period for all operations
at the St. Louis NDC. We identified 25,085 yard moves. Because the VTAPS data did
not include yard moves performed at the St. Louis Annex, which is supported by the
NDC drivers, we incorporated manual records obtained from the NDC. The manual
records started May 15, 2012, and continued for 5 weeks. We combined the moves
performed at the NDC and the annex. We examined this workload with previously
established Postal Service productivity standards of 40 moves per day for NDC PVS
spotter driver operations.

We assessed the reliability of YMS and VTAPS data. We validated data from the YMS
as they pertain to spotter moves in the yard at the St. Louis NDC. We observed spotters
moving trailers within the yard and compared those to the YMS spotter move report for
the same period. We concluded the data were accurate and reliable. We also verified
the accuracy of the data through discussions with Postal Service officials
knowledgeable about the data and the system that produced the data. We determined
that the data were sufficiently reliable for the purposes of this report.


8
  Tier 1 sites distribute local and destination Standard Mail, Periodicals, and Package Services for the Tier 1 service
area. Tier 2 sites include Tier 1 responsibilities and the distribution of outgoing Standard Mail, Periodicals, and
Package Services for assigned Tier 1 sites.
9
  YMS is an automated system that tracks vehicles through a facility yard.
10
   VTAPS manages vehicle operations by providing real-time actionable information, effective vehicle tracking and
control utilities, and flexible access to data required to evaluate and improve vehicle operations. Interface will provide
times schedule, drop ship, and times data for use in VTAPS.


                                                            6
St. Louis Network Distribution Center – Postal                              NL-AR-12-008
 Vehicle Service Operations

We conducted this performance audit from April through September 2012 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on August 21, 2012, and included their
comments where appropriate.




                                                 7
      St. Louis Network Distribution Center – Postal                                          NL-AR-12-008
       Vehicle Service Operations

      Prior Audit Coverage


                                               Final         Monetary
                           Report             Report          Impact
   Report Title           Number                Date                                     Report Results
Postal Vehicle          NL-AR-09-005         7/17/2009       $4,336,804   The OIG identified a total of 12,250
Service                                                                   unnecessary workhours. Management
Transportation –                                                          should verify the removal of 3,500
Philadelphia Bulk                                                         workhours and phase out an additional
Mail Center                                                               8,750 workhours agreed to during our
                                                                          audit. Management should also
                                                                          periodically assess PVS workload and
                                                                          staffing requirements to maintain
                                                                          appropriate staffing levels. Management
                                                                          agreed with our findings and
                                                                          recommendations.
Postal Vehicle          NL-AR-10-007         8/4/2010        $2,791,349   The OIG identified 6,968 unnecessary
Service                                                                   workhours and had agreement from the
Transportation                                                            Washington NDC. Management should
Routes –                                                                  verify the phasing out the workhours. In
Washington                                                                addition, NDC managers need to
Network                                                                   periodically assess PVS workload and
Distribution Center                                                       staffing requirements to maintain
                                                                          appropriate staffing levels. Management
                                                                          agreed with our findings and
                                                                          recommendations.
Atlanta Network         NL-AR-12-007         6/21/2012       $694,105     The OIG identified a total of 8,714
Distribution Center                                                       unnecessary workhours. Management
– Postal Vehicle                                                          should eliminate 6,968 workhours, and
Service Operations                                                        NDC managers need to periodically
                                                                          assess PVS workload and staffing
                                                                          requirements. Also, management should
                                                                          eliminate an additional 1,746 workhours
                                                                          by following prescribed standard
                                                                          operating procedures for movement of
                                                                          trailers in the yard to maintain
                                                                          appropriate staffing levels. Management
                                                                          agreed with our findings and
                                                                          recommendations with reservations.




                                                         8
St. Louis Network Distribution Center – Postal                                NL-AR-12-008
 Vehicle Service Operations

                Appendix B: Detailed Analysis of Live Loading Practices

After conducting our observations at the St. Louis NDC, we extracted a historical
outbound trip report from YMS that detailed all of the outbound dispatches being made
by the facility for a 3-week period to determine whether trips could be live loaded given
time constraints. We also obtained the spotter activity archive report for the same
period. Using these reports, we compiled a list of trips and sorted by dock door to
determine what time trips were departing from a specific door and the new location of
the trailers. If there was more than 1 hour between trips leaving from the same door, we
determined the trips were candidates for live loading. We then considered other factors,
including the percentage of load on each trip, dock space for staging mail for
subsequent trips, and location of move. We determined St. Louis management
consistently followed the Postal Service‟s NDC policy for live loading and unloading
when possible. Based on our analysis of live loading, we determined that St. Louis is
executing effective and efficient loading practices, as 95 percent of the outbound trips
were being live loaded, as shown in Table 1.




                                                 9
St. Louis Network Distribution Center – Postal                                                NL-AR-12-008
 Vehicle Service Operations




                       Table 1. St. Louis NDC Outbound Trip Analysis
                                                                  Trips that Could Be Live
                      Date                   Total Trips                   Loaded
         Wednesday, May 16, 2012                           70                                 7
         Thursday, May 17, 2012                            68                                 2
         Friday, May 18, 2012                              71                                 7
         Saturday, May 19, 2012                            68                                 1
         Sunday, May 20, 2012                              30                                 0
         Monday, May 21, 2012                              56                                 1
         Tuesday, May 22, 2012                             73                                 5
         Wednesday, May 23, 2012                           72                                 7
         Thursday, May 24, 2012                            71                                 4
         Friday, May 25, 2012                              72                                 1
         Saturday, May 26, 2012                            71                                 2
         Sunday, May 27, 2012                              30                                 1
         Monday, May 28, 2012                              26                                 1
         Tuesday, May 29, 2012                             55                                 1
         Wednesday, May 30, 2012                           69                                 3
         Thursday, May 31, 2012                            69                                 2
         Friday, June 1, 2012                              76                                 4
         Saturday, June 2, 2012                            74                                 2
         Sunday, June 3, 2012                              32                                 3
         Monday, June 4, 2012                              57                                 1
         Tuesday, June 5, 2012                             66                                 7
          Total Potential Live Loads                 1,276                                   62
            Identified in 3 Weeks

          Percentage of Trips with
         Potential to be Live Loaded                                                         5%
        Source: Postal Service, YMS Outbound Trip Status Reports, as of June 19, 2012.




                                                      10
St. Louis Network Distribution Center – Postal                                                        NL-AR-12-008
 Vehicle Service Operations



         Appendix C: Detailed Analysis – Tractor Trailer Operator Work Load

The St. Louis NDC has 15 TTO drivers over three tours that are responsible for moving
trailers around the St. Louis NDC yard and the St. Louis Annex yard, with spotter trucks.
The work includes movement of trailers for operations of the NDC as well as operations
associated with the St. Louis Annex, which is located on the same street, 1/2 mile away.

We reviewed all yard moves associated with the NDC operations within a 4.5-month
period from November 1, 2011, to March 12, 2012. We examined 25,085 yard moves
over 133 days. We also reviewed yard moves tracked manually at the annex for a
5 week period from May 15 to June 24, 2012. After analyzing the moves, we determined
that each TTO driver moved an average of 16 moves per day. The national standard for
yard moves is 40 moves per day (see Table 2).

                           Table 2. Average Moves per Driver per Day


                                                                               Average             Average
                                                                              Move Per            Move Per
                                Average                                       Driver Per          Driver Per
       Facility               Weekly Moves                 Drivers              Week                 Day
 St. Louis NDC                        1,320                             -                  -                  -
 St. Louis Annex                        337                             -                  -                  -
 TOTAL                                1,657                            15                110                 16
Note: Because the drivers are only assigned to the NDC, the moves per driver are viewed as a total.
Source: Postal Service, VTAPS and manual reports from St. Louis Annex, as of June 24, 2012.




                                                        11
St. Louis Network Distribution Center – Postal                             NL-AR-12-008
 Vehicle Service Operations



                     Appendix D: Detailed Analysis of Safety Concerns

During our observations of PVS vehicles in motion within the NDC yard, we found that
only 18 percent of the drivers were wearing seat belts (see Chart 1).

                     Chart 1. Percentage of Drivers Wearing Seat Belts
                                Based on OIG Observations




         Source: OIG, June 5, 2012.




                                                 12
St. Louis Network Distribution Center – Postal                                                         NL-AR-12-008
 Vehicle Service Operations



                                     Appendix E: Monetary Impacts

We concluded that St. Louis NDC management could phase out 6,984 workhours by
following established productivity standards. This would save the Postal Service
$298,974 annually ($598,948 over 2 years), as reflected in Table 3.

                  Table 3. PVS Potential Savings – Funds Put to Better Use11




                  Recommendation               Impact Category                     Amount
                        1                    Funds Put to Better Use               $598,948

                 Source: OIG, as of June 30, 2012.

Total Excess Workhours and Associated Cost Reductions Findings: We employed a 10-
year cash flow methodology, discounted to present value, by applying the following
factors published by Postal Service Headquarters Finance. We then took 20 percent of
the total to represent the savings for 2 years, as shown in Table 4.

                             Table 4. Highlights from 10-Year Cash Flow

                                                                          10-Year Total
                                Fiscal Year                                                        20% (or
                                                                          (FYs 2013 to
                                 (FY) 2013             FY 2014                                      2-Year
                                                                              2022)
  Cost Category                    Total                Total                                      Savings)
 Personnel -                         309,615             315,188                 2,989,738            598,948
 Productivity
Source: OIG, as of June 30, 2012.

        Table 5. Discount Rate/Escalation Factor for Computing Monetary Impact

                                   Rates by Type12                                      Factor
                  Discount Rate/Cost of Borrowing                                         2.6%
                  Labor Escalation Rate                                                   1.8%
                 Source: Postal Service, Finance Memorandum dated November 23, 2011.




11
     Impact Category: Funds that could be used more efficiently by implementing recommended actions.
12
     Rates published November 23, 2011.


                                                         13
St. Louis Network Distribution Center – Postal                  NL-AR-12-008
 Vehicle Service Operations

                            Appendix F: Management’s Comments




                                                 14
St. Louis Network Distribution Center – Postal        NL-AR-12-008
 Vehicle Service Operations




                                                 15
